No. 19-575
IN THE SUPREME COURT OF THE UNITED STATES
CHARTER COMMUNICATIONS, INC, ET AL.,
PETITIONERS
V.

STEVE GALLION, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES, via e-mail and first-class mail, postage prepaid, this
2ND day of December 2019.
[See Attached Service Listi
As required by Supreme Court Rule 33.1(h), I certify that the document contain 1518 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 2, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 2, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0575
CHARTER COMMUNICATIONS, INC., ET AL.
STEVE GALLION, ET AL.

RICHARD P. BRESS
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
RICK.BRESS@LW.COM
SHAY DVORETZKY
JONES DAY
51 LOUISIANA AVENUE NW
WASHINGTON, DC 20001-2113
202-879-3474
SDVORETZKY@JONESDAY.COM

